March 5, 2009

PRANAB M. SHAH
MANAGING DIRECTOR, GLOBAL BUSINESS AND VICE PRESIDENT

SUBJECT: Audit Report – Controls Over International Air Transportation Payments
         (Report Number CRR-AR-09-003)

This report presents the results of our audit of controls over the U.S. Postal Service’s
International Air Payments (Project Number 08RG018CRR000). Our objective was to
evaluate the controls over the Postal Service’s air transportation payments for
international mail. The Postal Accountability and Enhancement Act of 2006 (the Postal
Act of 2006) requires the U.S. Postal Service Office of Inspector General (OIG) to audit
the data collection systems and procedures the Postal Service uses in its pricing
process. This self-initiated audit addresses both financial and operational risks. See
Appendix A for additional information about this audit.

Conclusion

Insufficient system and management controls over the Surface Air Support System
(SASS) resulted in payment errors to air carriers transporting international airmail. The
system design did not include all the necessary business logic to correctly calculate
payments for the transportation of international airmail. The system deficiencies place
the Postal Service’s goodwill/branding and assets at risk. The value of assets at risk for
fiscal years (FYs) 2005 to 2008 totaled $807,128,168 in civilian mail.1 Contract
expenditures made to identify and correct payment errors totaled $3,951,771.

Civilian international airmail transportation expenses are a component of the
International Cost and Revenue Analysis (ICRA) model. The introduction of incorrect
data into the ICRA impacts the pricing of international airmail products. Management
uses the ICRA to calculate pricing proposals, and the Postal Regulatory Commission
issues an annual report to Congress based on its evaluation of the ICRA.




1
  The U.S. Department of Defense reimburses military air carrier transportation costs in full; therefore, we are not
including this amount in our Semiannual Report to Congress. Military mail transportation costs for FYs 2005 to 2008
totaled $1.5 billion.
Controls Over International Air Transportation Payments                    CRR-AR-09-003



Application Controls

The SASS incorrectly calculated and paid international airmail transportation costs to
more than 100 air carriers since its implementation in August 2005. This occurred
because the system requirements for SASS were not fully defined and tested before
deployment. Incorrect implementation of calculation logic resulted in both over- and
underpayments to international air carriers.

Although Postal Service management has identified three types of issues, they have not
done sufficient analysis or testing to identify all errors existing in the system. Based on
the Postal Service’s preliminary estimates, net overpayments totaled $10.1 million for
April 2006 through July 2008. Additional calculations were completed on
January 31, 2009, to determine payment errors prior to April 2006.

Further, the Postal Service incurred additional contract costs to identify and correct
system logic errors. See Appendix B for our detailed analysis of this topic.

We recommend the Managing Director, Global Business and Vice President direct the
Executive Director, Global Business Strategy and Technology to:

1. Identify all potential payment deficiencies in the Surface Air Support System and
   implement system changes as needed.

2. Update system documentation as needed.

3. Consult with Supply Management concerning the contract payments to the initial
   contractor and pursue recoveries, as appropriate.

Management Controls

The processes for paying international air transportation costs did not include control
mechanisms to detect and prevent payment errors. For example, no exception reports
were available to identify payment errors, and management did not perform any
reconciliations to validate the accuracy of payments. Xxxxxxxxxx xxxxxx xx x xxxxx
xxxxxxxxx xxxxxxx xxxxxx xxx xxxxxx xxxxxxxx xx xxx xxxxxxxx. xxx xxxxxxx xx x
xxxxxxxxxxxxxx xxxxxxx xxx xxxxxxxxx xxxxxxx xxxxxxx xxx xxxxxx xxxxxxxxx xxxxxxx
xx xxxxxxxx xxx xxxxxxx xxxxxxx xxxxxx xx x xxxxxx xxxxxx. See Appendix B for our
detailed analysis of this topic.

We recommend the Managing Director, Global Business and Vice President direct the
Executive Director, International Operations to:

4. Develop exception reports capable of identifying errors in payments to air carriers.

5. Implement a reconciliation process to rectify payment errors to international air
   carriers in a timely manner.


                                                    2
Controls Over International Air Transportation Payments                CRR-AR-09-003



Management’s Comments

Management concurred with our findings and recommendations. Management’s
comments, in their entirety, are included in Appendix D.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s actions should resolve the issues identified in the report.

The OIG considers recommendations 1, 3, 4, and 5 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.

Although management did not comment on the monetary and non-monetary impacts of
our findings, we will report $3,951,771 of monetary impact of recoverable questioned
costs and $807,128,168 of non-monetary impacts of assets at risk and
goodwill/branding in our Semiannual Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, Director, Cost,
Revenue, and Rates, or me at (703) 248-2100.



Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Susan M. Brownell
    Giselle E. Valera
    Michael J. Nappi
    Harold E. Stark
    Ronald L. Middlebrooks
    Katherine S. Banks




                                                    3
Controls Over International Air Transportation Payments                                      CRR-AR-09-003



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service originally developed the SASS to manage domestic mail
transportation needs. The Postal Service subsequently modified the system and began
using it in August 2005 to process payments to air carriers for transporting civilian and
military mail to foreign destinations. During FYs 2006 through 2008, about 120 airlines
transported international mail for the Postal Service. Payments for outbound
international mail transport during FY 2008 totaled $827 million, including $515 million
for military mail transport reimbursable by the U.S. Department of Defense.

Five international service centers (ISCs) process outbound mail to 210 destinations.2
The ISCs consolidate outbound letters, parcels, and Express Mail® mailpieces into
receptacles. Each receptacle is weighed and scanned into the Global Business System
(GBS) Dispatch application, which manages mail data on outbound international mail.
Dispatches containing one or more receptacles are grouped into consignments, which
are packaged in containers and delivered to air carriers for transport. A container may
contain multiple consignments, and a consignment may contain only one receptacle.

To process payments, SASS combines handling unit scan data from GBS Dispatch,
vendor arrival and departure information, and rate management information3 from the
Logistics Contract Management System. The handling unit data becomes the
assignment data for the trip, which automatically initiates the payment process in the
system. Different contract rates apply to different types of air transportation contracts.
These contract rates are established by the U.S. Department of Transportation (DOT),
the Universal Postal Union (UPU), International Air Transport (IAT) agreements, and
International Surface Airlift (ISAL) agreements.

Calculation methods for air transportation costs also vary depending on the contract
type. For example, transportation contracts for IAT containers are based on container
weights, which apply to containers of at least 750 pounds of mail per flight, with no more
than 5 percent of the mail consisting of letter class by weight. ISAL contracts provide a
reduced-rate bulk mailing system for publications, advertising, catalogs, and directories.

Xxx xxx xxxxxxxxxxxxxx xxxxx xxxxxxxxxx xx xxxx xxxx xxx xxxxxx xxxxxxxx xxxxxxx
xxxxxx, xxxxx xxxxxx xxxxxx xx xxxxxxxxxx xxxxxxx xxxxxxxxx xx xxx xxxxxxxx. xxxx
xx xxxxxxxx xx xxxxxxxxxxxxx xxxxxxx xxxxxxxx xxxxxxx xxxxxxxxxxx xxxxxx xxx
xxxxxxxxxxxx xx xxxxxxxxxxx xxxxx xx xxxxxxxxxxxxxx xx xxx xxxxxxxxxxxx.
Employees at the International Accounting Branch (IAB) in St. Louis, MO, processed
and manually reconciled international air transportation payments before
implementation of the SASS.


2
  The ISCs are located in New York, NY; Miami, FL; Chicago, IL; and San Francisco and Los Angeles, CA.
3
  Rate management information includes such information as authorized carriers, DOT-approved rates, contract
rates, and distance.

                                                        4
Controls Over International Air Transportation Payments                 CRR-AR-09-003



The SASS was initially sponsored by the Networks Operations group and developed by
a contractor. The contractor, with oversight from management, developed the system
requirements and designed and developed the system. The contractor also provided
maintenance support. In August 2005, the Executive Director of Global Business
Strategy and Technology assumed project sponsorship for the SASS. Currently, the
Manager, Network Operations and Business Systems Portfolio provides software
development support. During February 2007, management reassigned system
maintenance support responsibility to another contractor to assist in identifying and
correcting calculation errors in the SASS payment logic. Expenditures made to the
replacement vendor to correct the payment logic errors and implement system
modifications totaled $3,951,177.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate controls over the Postal Service’s air transportation
payments for international mail. To accomplish our objective, we reviewed available
policies and procedures. We reviewed systems documentation for the SASS, including
the documentation for change requests. We analyzed international air carrier payments
for FYs 2005, 2006, 2007, and portions of 2008. We interviewed key officials in Global
Business, conducted site visits to selected ISCs, observed operations, and interviewed
employees at the St. Louis IAB.

We conducted this performance audit from June 2008 through March 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on January 8, 2009, and
included their comments where appropriate. We used manual and automated
processes to assess the reliability of data used for our analysis, and we concluded the
data were sufficiently reliable to support the audit objective.

PRIOR AUDIT COVERAGE

We have conducted no prior audits of this issue.




                                                    5
Controls Over International Air Transportation Payments                                          CRR-AR-09-003



                                 APPENDIX B: DETAILED ANALYSIS

Application Controls
The SASS incorrectly calculated amounts payable to air carriers for transporting
international mail. This occurred because the calculation logic for international air
carrier payment was not correctly identified and implemented during system conversion.
Xxx xxxxxx xx xxxxxxxx xx xxxxxxxxxxxxx xxxxxxx xxxxxxxx xxxxxxx xxxxxxxxxxx
xxxxxx xxx xxxxxxxxxxxx xx xxxxxxxxxxx xxxxx xx xxxxxxxxxxxxxx xx xxx xxxxxxxxxxx.
The Postal Service estimated that net overpayments to 13 air carriers were
approximately $10.1 million from April 2006 through July 2008.4 The system
deficiencies place the Postal Service’s goodwill/branding and assets at risk. The value
of assets at risk for FYs 2005 to 2008 includes $807,128,168 in civilian mail
transportation costs.

The Postal Service deployed the SASS for international air payments in August 2005.
The initial systems requirements specifications, design, and testing were inadequate,
resulting in processing and payment calculation errors. The Postal Service’s evaluation
showed the following.

    •    For payments based on IAT, ISAL, UPU, and DOT rates, the system calculated
         payments based on transportation segments, regardless of the contract type. In
         cases where multiple stops occurred between the origin and the final destination,
         the system calculated transportation costs for each segment using the origin and
         destination of that segment as calculation factors. The system then made
         payment to the applicable air carrier for the individual transportation segments.
         The combined costs for the individual segments would be higher than the
         contracted cost for the origin–final destination pair. As an example, for a
         transportation contract between San Francisco, CA, and Okinawa, Japan, the
         payment calculation would be for two segments: San Francisco to the
         intermediate city of Narita, Japan, and from Narita to Okinawa. The combined
         cost for the two segments is higher than the contracted transportation cost
         between San Francisco and Okinawa. The system did not have built-in controls
         to ensure that the payment was actually for transporting mail from the origin to
         the final destination in accordance with the contract terms.
 
    •    When a container had more than one consignment and one of the consignments
         had only one receptacle, the system calculated a payment record for each
         consignment at the container rate. When calculating the payment, the system
         did not take into account the consignment weight or the container weight. In
         these cases, the calculated amount should be the container rate multiplied by the
         ratio of the consignment weight to the container rate.




4
 The Postal Service overpaid $12.7 million and underpaid $2.6 million to air carriers, resulting in net overpayments of
$10.1 million.

                                                          6
Controls Over International Air Transportation Payments                     CRR-AR-09-003




    •   For reimbursement from the military for transportation of military mail, the system
        did not correctly allocate the respective transportation costs to different military
        branches. When one container had receptacles belonging to multiple branches
        of the military, the system allocated the entire cost of the consignment to the
        branch listed as the last receptacle in the consignment.

When the Postal Service modified the original system to accommodate international
mail transportation needs, it did not fully incorporate all the business logic for correct
calculation of international mail transportation expenses under different contract types.
Although the Postal Service used contractors to complete the system changes,
inadequate oversight by management resulted in deficiencies in requirements
identification and testing. This resulted in a system that produced calculation errors of
various types. Adhering to the Postal Service’s systems development guidelines and
best practices would help ensure that critical business systems such as SASS process
data accurately.

Best practices require that policies, procedures, practices, and organizational structures
be designed to provide reasonable assurance that the Postal Service will achieve
business objectives and prevent undesired events or detect and correct them.
Xxxxxxxxxxxx, xxxxxxxxxx xxxxxx xxxxxxx xxxxxxx xxxxxxxxxxxx xx xxxxxx xxxx
xxxxxxxxxx xx xxxxxxxxxx xxx xxxxxxxxxx xxxxxxxxx xxxx xxxxxxxxx xxxxxxxx, xxxxx
xxxxxxxxxxx.

The Postal Service appointed a new contractor to identify and rectify deficiencies in the
SASS. As of October 2008, contract expenditures made to identify and correct payment
errors totaled $3.95 million. If the system modification had incorporated the
international transportation requirements and the subsequent testing had been
adequate, the Postal Service could have avoided most of these additional expenses.

Although Postal Service management has identified the three types of issues listed
above, xxxx xxxx xxx xxxx xxxxxxxxxx xxxxxxxx xx xxxxxxx xx xxxxxxxx xxx xxxxxx
xxxxxxxx xx xxx xxxxxx. During our review, the Postal Service began consultations with
an independent third party to audit the source code of the application to identify
additional errors.

Management Controls

The procedures used to ensure the accuracy of payments need strengthening. xxx
xxxxxx xxxxxxx xxxx xxx xxxxxxx xxx xxxxxxxxxx xxxxxxx xxxxxxx xxxxxxxxx xxxxxxx
xxxxxxxxxxxxx xxxxxx xxxxxxxxxxxx. xxxxxxxxxxxx, xxxxxxxxxx xxxx xxx xxxxxxxxx
xxxxxxxx xx xxxxxx xxxxxxxx. xxx xxxxxx xxxxxxx xxxxxxxx x xxxxx xxxxxxxxx xxxxxxx
xxxxxxx xxx xxxxxxxxxx xxx xxxxxx xxxxxxxxxxxxx xxx xxxxxxxxxxxxxx xxxxxxxx. The
absence of mitigating controls resulted in payment errors from August 2005 through
September 2008. Implementing controls would enable the Postal Service to safeguard
its assets and reduce the need for contractor resources for remedial actions.


                                                    7
Controls Over International Air Transportation Payments                 CRR-AR-09-003




Prior to SASS deployment, IAB employees received detailed information for processing
and reconciling international air carrier payments. The processing performed by IAB
employees allowed the detection and correction of payment errors. When the GBS
assumed ownership of the SASS, they also assumed responsibility for ensuring the
accuracy of air carrier payments. However, the design of the SASS and the subsequent
change to accommodate international air carrier payments did not incorporate control
procedures to detect or identify payment errors in a timely manner. Xxxxxxxxxx xx xxx
xxxxxxxx xx xxx xxxxxx xxxxxxxxxx xx xxxx, xxx xxxxxxx xxxxxxx xxx xxxxxxxxxxx xx
xxx xxxxxxxx xxxxxxx xxxxxx, xxxxxxxxx xx xxxxxxxxx xxxxxxxx xx xxx xxxxxxxx.
Incorporating exception reports and performing regular reconciliations will help
management ensure air carrier payments are accurate.

According to best practices, management should implement automated edits and
checks to ensure the accuracy and completeness of transaction processing.
Additionally, operating reports should be integrated and reconciled with financial and
budgetary reporting system data and used to manage operations on an ongoing basis,
and management should be aware of inaccuracies or exceptions that could indicate
internal control problems. Management should also compare production or other
operating information obtained during daily activities to system-generated information
and follow up on any inaccuracies or other problems.

Management Actions

Management initiated change requests to address the three scenarios identified as
causing payment errors. On September 17 and October 3, 2008, management
deployed changes that corrected the three types of payment errors.

Based on the Postal Service’s preliminary estimates, the net overpayments were
$10.1 million for 13 air carriers for the period April 2006 through July 2008.
Management developed an independent engine for recalculating all prior payment data
using historical air carrier data. After management completed this engine, they began
performing comprehensive evaluations of air carrier payments by fiscal year. This
evaluation determined that the net payment error for FY 2008 was $5 million.

Management advised us that on January 31, 2009, they completed a recalculation of all
payment data dating back to August 2005 by fiscal year. They then started
communicating with air carriers to settle payment differences with them and adjust
accounting records.




                                                    8
Controls Over International Air Transportation Payments                      CRR-AR-09-003



      APPENDIX C: CALCULATION OF RECOVERABLE QUESTIONED COSTS

The Postal Service incurred $3,951,771 in additional contracting costs for identifying
and correcting payment calculation issues related to international air payments in the
SASS.

             Number of
              Contract
            Modifications                    Description                 Amount
                                  Contract cost of correcting SASS
                    4             issues related to international air   $3,951,771
                                    transportation payment errors.




                                                    9
Controls Over International Air Transportation Payments     CRR-AR-09-003



                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                   10
Controls Over International Air Transportation Payments   CRR-AR-09-003




                                                   11
